U.S. Department of the Interior
Office of Inspector General




            AUDIT REPORT


GENERAL AND APPLICATION CONTROLS
 OVER THE TECHNICAL INFORMATION
       MANAGEMENT SYSTEM,
 OFFSHORE MINERALS MANAGEMENT,
  MINERALS MANAGEMENT SERVICE

             REPORT NO. 00-I-647
                AUGUST 2000
U.S. Department    of the Interior                                       Office of Inspector   General



                                 EXECUTIVE         SUMMARY           ,


                           General and Application Controls Over
                       the Technical Information Management System,
                               Offshore Minerals Management,
                                Minerals Management Service
                                     Report No. 00-I-647
                                         August 2000

BACKGROUND

The Minerals Management Service (MMS) manages the Nation’s natural gas, oil, and other mineral
resources on the Outer Continental Shelf and collects, accounts for, and disburses revenues from
offshore and onshore mineral leases on Federal and Indian lands. MMS’s Offshore Minerals
Management (OMM) program manages the Outer Continental Shelf mineral leases. These leases
result in more than $4 billion of royalties being collected annually. Also, OMM provides oversight
to ensure safe and environmentally sound exploration and production of the Nation’s mineral
resources on the Outer Continental Shelf. To accomplish its mission and to automate business and
regulatory functions, OMM designed, developed, and implemented the Technical Information
Management System (TIMS), an MMS mission-critical system and a comprehensive corporate
database.

OBJECTIVE

The objective of the audit was to determine whether OMM had effective general and application
controls over TIMS and whether TIMS was operated in compliance with applicable Federal laws and
regulations. In addition, we performed this audit to support the Office of Inspector General’s
examination of the financial statements of MMS by evaluating the reliability of the controls over
computer-generated data that support the Royalty Management Program’s portion of the financial
statements.

RESULTS     IN BRIEF

Overall, we concluded that OMM had established adequate general and application controls over
TIMS. However, improvements are needed in four areas in OMM’s general and application controls
over TIMS. These areas are the security program, the continuity of operations plan to protect data
in the event of a disaster or a system failure, controls over access to TIMS data, and software
development and change management. Federal laws and regulations and Department of the Interior
and MMS policies and procedures require that general and application controls be established and
implemented to protect information in computer systems. Weaknesses existed in the controls over
TIMS because OMM management had not developed an adequate security program and had not
ensured that policies and procedures were followed. The lack of adequate controls increased the risk
that TIMS data could be accessed and modified or disclosed by unauthorized users, that TIMS
software and data could be stolen or destroyed, that TIMS functions and processes could not be
recovered in the event of a disaster or a system failure, and that TIMS could not perform as
intended.

RECOMMENDATIONS

We made 15 recommendations related to MMS’s controls over TIMS. These recommendations
related to improving (1) OMM’s security program over TIMS, (2) TIMS’ continuity of operations
plan, (3) access controls to TIMS and its databases, and (4) the policies and procedures for making
changes to TIMS software and for testing the changes.

AUDITEE COMMENTS            AND OIG EVALUATION

MMS concurred with the report’s 15 recommendations. Based on the response, we considered eight
recommendations resolved and implemented and seven recommendations resolved but not
implemented.




                                                2
I                                                                         A-IN-MMS-001-99-R


                 United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                        Washington,   D.C. 20240




                                     AUDIT REPORT
    Memorandum

    To:        Director, Minerals Management Service

    From:      Roger La
               Acting Assistant Inspe    r General for Audits

    Subject:   Audit Report on General and Application Controls Over the Technical
               Information Management System, Offshore Minerals Management, Minerals
               Management Service (No. 00-I-647)

                                     INTRODUCTION
    This report presents the results of our review of general and application controls over the
    Minerals Management Service’s (MMS) Technical Information Management System
    (TIMS). The objective of the audit was to determine whether MMS had effective controls
    over TIMS and whether TIMS was operated in compliance with applicable Federal laws and
    regulations. In addition, we performed this audit to support the Office of Inspector General’s
    examination of the financial statements of MMS by evaluating the reliability of the controls
    over computer-generated data that support the Royalty Management Program’s portion of
    the financial statements.

    BACKGROUND

    MMS manages the Nation’s natural gas, oil, and other mineral resources on the Outer
    Continental Shelf and collects, accounts for, and disburses revenues from offshore and
    onshore mineral leases on Federal and Indian lands. In 1998, MMS collected $5.6 billion
    from Federal and Indian mineral leasees, of which $4.3 billion was from Outer Continental
    Shelf mineral leasees. MMS has two specialized operating programs, the Offshore Minerals
    Management (OMM) program and the Royalty Management Program. OMM manages the
    Outer Continental Shelf mineral leases and provides oversight to ensure the safe and


                                                      3
environmentally sound exploration and production of the Nation’s mineral resources on the
Outer Continental Shelf. OMM has its headquarters in Washington, D.C., with offices in
Hemdon, Virginia, and has regional offices in New Orleans, Louisiana; Anchorage, Alaska;
and Camarillo, California. Also, the headquarters OMM Leasing Division has its Mapping
and Boundary Branch, located in Denver, Colorado. The Royalty Management Program
manages the accounting for and the collection and disbursement of royalty, rent, and bonus
revenues generated from Federal and Indian mineral leases.

To accomplish its mission, OMM designed, developed, and implemented TIMS, an MMS
mission-critical system and a comprehensive corporate database that replaced and upgraded
all Federal information processing resources which supported the OMM program. TIMS was
developed to modernize and replace several critical offshore systems, including the Outer
Continental Shelf Information System, the Offshore Inspection System, the Automated
Cartographic System, and the Geological and Geophysical Database. TIMS information is
used, in part, to update the Royalty Management Program system with oil and gas well
production data from offshore leases to assist in verifying the accuracy of royalties collected
from the Outer Continental Shelf.

TIMS is a computerized information system that automates all business and regulatory
functions of OMM. TIMS is a three-tier’ client/server platform with application servers
located at all the OMM regional offices (three) and district offices (six) and database servers
located at the regional offices. The Chief of the OMM Information Technology Division is
the owner of TIMS. The Division is responsible for developing and maintaining TIMS’s
database structures, and regional and district offices are responsible for the data in the
databases. TIMS employs the Oracle relational database management system and tools to
manage data and support OMM business functions. In addition, TIMS includes commercial
off-the-shelf software for OMM geologic interpretative tools and mapping functions. TIMS
is constructed of 41 business components’ (the components are listed in Appendix 2) which
include more than 800 modules. To operate, TIMS uses approximately 55 different types of
hardware items, such as personal computers and network equipment, and 68 software items,
such as Windows NT and UNIX operating systems, ArcView, Geoquest, and Microsoft
Office.

SCOPE OF AUDIT

We reviewed OMM general and application controls over TIMS. Specifically, we reviewed
the following general controls: (1) software development and change management, (2) risk
assessment, (3) security plans, (4) service continuity, (5) system software, and (6) access
controls. For application controls, we reviewed input, processing, authorization, and output.


‘A three-tier client/server environment is defined as one in which “the user interface is stored in the client, the
bulk of the business application logic is stored in one or more servers, and the data are stored in a database
server.” (The Computer Language Company, Inc., Cornouter Desktop Encvclonedia, 198 l- 1999)

‘TIMS is divided into major groupings or components that correspond to the different activities overseen by
OMM.

                                                         4
To accomplish our objective, we interviewed OMM and contractor personnel, reviewed
application and systems documentation, observed and became familiar with system
operations and data structures, analyzed access and security controls, and evaluated service
continuity procedures and testing. The audit was conducted at the Information Technology
Division Office of OMM and the OMM Gulf of Mexico Regional Office in New Orleans and
Division headquarters and the Information Management Division in Hemdon. Although
TIMS is installed at all of the regional offices, our review was limited to the Gulf of Mexico
Regional Office because this regional office processes almost 90 percent of the data related
to oil and gas production and Outer Continental Shelf royalties.

Our audit was made in accordance with the “Government Auditing Standards,” issued by the
Comptroller General of the United States. Accordingly, we included such tests of records
and other auditing procedures that were considered necessary under the circumstances.

As part of our audit, we employed statistical test samples to determine the adequacy of TIMS
access controls and software development and change management procedures. Specifically,
we randomly selected 77 TIMS users from a list of 849 users who had access to TIMS. Also,
we randomly selected 132 change requests from a list of 1,157 change requests for the period
of October 1998 through June 1999.

During our audit, the Department of the Interior’s Office of Information Resources
Management contracted to acquire professional services to support the Department with
testing, analysis, and vulnerability assessment of Departmentwide information technology
architecture. Specifically, the contractor was tasked with performing a comprehensive
vulnerability analysis (using Internet Security Systems scanning software) of Departmental
intemet protocol address assignments, which included OMM intemet protocol addresses.
As a result, we did not review the results of the analysis of OMM networks.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the General Accounting Office nor the Office of Inspector
General has issued any reports related to OMM’s general and application controls over
TIMS.

                             RESULTS          OF AUDIT

We concluded that overall, MMS’s OMM had established adequate general and application
controls over TIMS. However, we believe that the general controls of OMM need
improvements in four areas: security program; continuity of operations in the event of a
disaster or a system failure; controls over access to TIMS; and software development and
change management. Office of Management and Budget Circular A-l 30, “Management of
Federal Information Resources,” and National Institute of Standards and Technology
publications and guidelines require agencies to establish and implement computer security
and management and internal controls to improve the protection of sensitive3 information in
the computer systems of executive branch agencies. Additionally, the Congress enacted
laws, such as the Privacy Act of 1974 (5 U.S.C. 5 552a) and the Computer Security Act of
 1987 (40 U.S.C. 5 759), to improve the security and privacy of sensitive information in
computer systems by requiring executive branch agencies to ensure that the level of computer
security and controls over sensitive information is adequate. Further, the Department of the
Interior and MMS have issued policies and procedures to implement general and application
controls to protect sensitive data in automated information systems. Weaknesses existed in
the general controls over TIMS because OMM management had not developed an adequate
security program and had not ensured that policies and procedures were followed. The lack
of adequate controls may increase the risk of (1) unauthorized access and modifications to
and disclosure of sensitive TIMS data, (2) theft or destruction of OMM software and
sensitive information, (3) loss of TIMS systems and functions in the event of a disaster or a
system failure, and (4) TIMS not performing as intended.

In the four areas that needed improvements in the controls, we identified 8 weaknesses and
made 15 recommendations for improving the controls over TIMS. The weaknesses are
summarized in the paragraphs that follow, and details of the weaknesses and our respective
recommendations to correct these weaknesses are in Appendix 1.

Security Program

OMM management did not have a security plan for TIMS and did not ensure that computer
security awareness training was provided. As a result, there was an increased risk that
sensitive data could be impaired or compromised and that data could be inadvertently
disclosed or destroyed or erroneously modified. We made three recommendations to correct
these weaknesses.

Service Continuity

OMM’s contingency planning, backup, and disaster recovery procedures did not provide
reasonable assurance that the TIMS processing environment could be recovered in the event
of a disaster or a system failure. Specifically, the Continuity of Operations Plan had not been
tested, critical personnel had not been trained to effectively implement the Plan, a copy of
the Plan was not kept at the off-site storage facility, and TIMS data and applications were not
routinely transferred to the off-site storage facility. As a result, there was an increased risk
that the mission-critical TIMS could not be recovered in the event of a disaster or a system
failure. We made five recommendations to address these weaknesses.




3”Sensitive data” is defined in 40 U.S.C. $ 759 as “any information, the loss, misuse, or unauthorized access
to or modification of which could adversely affect the national interest or the conduct of Federal programs, or
the privacy to which individuals are entitled under section 552a of Title 5, United States Code (the Privacy
Act).”

                                                       6
Access Controls

OMM management did not limit the numbers of log-in attempts allowed for access to TIMS,
did not control password settings, did not remove in a timely manner access for employees
who terminated their employment, and did not control access to TIMS databases. As a
result, there was an increased risk that sensitive data maintained on TIMS were vulnerable
to unauthorized access, manipulation, and disclosure. We made four recommendations to
address these weaknesses.

Software Development and Change Management

OMM management did not implement controls to ensure that TIMS application software
changes were authorized, approved, and tested before being moved into production. As a
result, there was an increased risk that TIMS applications may not perform as intended. We
made three recommendations to address these weaknesses.

MMS Response and Office of Inspector General Reply

In the July 19,200O response (Appendix 3) to the draft report from the Director of MMS,
MMS concurred with all of the 15 recommendations. Based on the response, we consider
Recommendations C. 1, C.3, C.4, D. 1, D.2, E. 1, F.l, and G. 1 resolved and implemented and
Recommendations A.l, B.l, B.2, C.2, C.5, G.2, and H.l resolved but not implemented.
Accordingly, the unimplemented recommendations will be forwarded to the Assistant
Secretary for Policy, Management and Budget for tracking of implementation.

Although MMS concurred with Recommendation H. 1, it disagreed with the “analysis that
drew the auditors to the recommendation.”           MMS stated that although the TIMS
Maintenance Methodology required test plans, the test plans were not required for “routine
and/or minor changes,” such as reports, system administration functions, database triggers,
software packages, and menu changes. We believe that testing is a critical component of
software maintenance because testing ensures that applications meet user and management
needs, produce reliable data, and operate in accordance with laws, regulations, and
management policies and procedures. Test plans should define the expected output and
include tests for valid, invalid, expected, and unexpected results. The TIMS Maintenance
Methodology does not allow for exceptions from change management procedures such as
testing for system administration, database triggers, software packages, and menu changes.
Further, the TIMS Maintenance Methodology does not allow for exceptions to exclude the
quality assurance group and user group from testing changes prior to the changes being
moved into production. The Methodology states that “every TIMS work product must pass
quality assurance tests before made available for testing by the Customer User Acceptance
Team.”

Since the report’s recommendations are considered resolved, no further response to the
Office of Inspector General is required (see Appendix 4).


                                             7
Section .5(a) of the Inspector General Act (5 U.S.C. app. 3), requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.




                                               8
                                                                              APPENDIX 1
                                                                               Page 1 of11



DETAILS      OF WEAKNESSES                  AND RECOMMENDATIONS

SECURITY      PROGRAM

A. Computer Security Plan

Condition:   Offshore Minerals Management (OMM) had not developed a security plan
             for the Technical Information Management System (TIMS), which has been
             identified by the Minerals Management Service (MMS) as a sensitive and
             mission-critical system.

Criteria:    Security plans are required by 40 U.S.C. 0 759 and Appendix III, “Security
             of Federal Automated Information Resources,” ofOffice ofManagement and
             Budget Circular A-l 30, “Management of Federal Information Resources,” to
             be developed for all sensitive computer systems. A computer security plan
             is designed to assist agencies in addressing the protection of general support
             systems and major applications that contain sensitive information to help
             ensure the system’s integrity, availability, and confidentiality. In addition,
             National Institute of Standards and Technology’s (NIST) Special Publication
             800-l 8, “Guide for Developing Security Plans for Information Technology
             Systems,” provides guidance on developing, implementing, and monitoring
             security plans for automated information systems. Also, Appendix III of
             Circular A- 130 requires that a summary of the security plan be incorporated
             into the agency’s Strategic Information Resources Management Plan.
             Additionally, Appendix III of Circular A-l 30 states that the lack of a security
             plan for a major application should be considered a deficiency pursuant to
             Office ofManagement Budget Circular A-123, “Management Accountability
             and Control,” and the Federal Managers’ Financial Integrity Act (3 1 U.S.C.
             $ 1105,1113, and3512).

Cause:       OMM information technology officials did not ensure that a computer
             security plan for TIMS was prepared in accordance with 40 U.S.C. 6 759,
             Office of Management and Budget requirements, and NIST guidelines.
             According to OMM officials, a draft TIMS Y2K (Year 2000) contingency
             plan was prepared that addressed degradation or failure of activities and
             remedies should any event threaten or disable the system. However, this plan
             did not meet the requirements for a security plan because it did not include
             the rules of the system, such as rules of behavior concerning use of, security
             in, and acceptable level of risk for the system; training of all individuals on
             their security responsibilities; personnel controls; incident response


                                            9
                                                                           APPENDIX 1
                                                                            Page2ofll

SECURITY         PROGRAM

              capability; continuity of support; technical security; and identification of
              connections to other systems.

Effect:       Without this plan, OMM did not have adequate assurance that data in its
              TIMS were adequately protected.

Recommendation

We recommend that the Director of MMS ensure that a computer security plan for TIMS is
developed, implemented, and monitored in accordance with the United States Code, Office
of Management and Budget Circular A-130, and NIST guidelines.




                                           10
                                                                                  APPENDIX 1
                                                                                   Page 3 of 11

SECURITY          PROGRAM

B. Computer         Security Training

Condition:       Mandatory computer security awareness training had not been provided to
                 OMM employees and contractor personnel. Specifically, at least 220 Gulf of
                 Mexico Regional Office and district personnel and Information Technology
                 Division personnel had not received annual computer security awareness
                 training since 1992.

Criteria:        Mandatory periodic training in computer security awareness and accepted
                 computer security practices is required by 40 U.S.C. 4 759 for employees
                 who are involved in managing, using, or operating each Federal computer
                 system within or under the supervision of that agency. In addition, the
                 Department of the Interior’s “Automated Information Systems Security
                 Handbook” requires that computer security training be provided on an
                 ongoing basis and that refresher training be provided at least annually.

Cause:           OMM information technology officials had not established policies and
                 procedures to ensure that annual computer security awareness training was
                 completed in accordance with applicable computer security guidelines.

Effect:          Without annual training in computer security awareness and accepted
                 computer security practices of employees who are involved in managing,
                 using, or operating sensitive OMM computer systems, including TIMS, there
                 is an increased risk of unauthorized disclosure of sensitive and propriety data.

Recommendations

We recommend that the Director of MMS:

        1. Implement policies and procedures to ensure that OMM employees and contractor
personnel who are involved with sensitive component systems receive annual computer
security awareness training.

          2. Ensure that training is documented in the employee human resource files.




                                                11
                                                                              APPENDIX 1
                                                                               Page 4 of 11

CONTINGENCY PLANNING, BACKUP, AND DISASTER RECOVERY

C. Service Continuity

Condition:   OMM did not have an effective means of recovering or continuing critical
             TIMS functions and operations in the event of a system failure or a disaster.
             Specifically, we found that:

                - The Gulf of Mexico Region’s April 1996 Continuity of Operations Plan
             had not been tested to ensure that the planned procedures for recovering
             TIMS and other business functions were feasible.

                 - Although Gulf of Mexico regional management had developed a draft
             plan, dated September 1999, neither the draft plan nor the April 1996 plan
             included recovering critical TIMS development and maintenance fLmctions
             of OMM’s Information Technology Division.

                 - Regional personnel responsible for continuing critical functions in the
             event of a disaster or an emergency were not trained in their roles and
             responsibilities described in the Continuity of Operations Plan.

                 - A copy of the Plan was not available at the designated off-site storage
             facility.

                 - Neither regional nor Information Technology Division personnel
             ensured that backup tapes of critical TIMS data and applications were
             routinely transferred to the off-site storage facility.

Criteria:    Appendix III of Circular A-130 requires agencies to establish controls to
             safeguard all information processed, transmitted, or stored in Federal
             automated information systems. Further, the Circular requires agencies to
             establish a contingency plan and periodically test the plan for the capability
             to perform the agency function supported by the application in the event of
             failure of its automated support. In addition, NIST Special Publication
             800-12, “An Introduction to Computer Security: The NIST Handbook,”
             recognizes that the success of recovering all information systems operations
             and data is largely dependent upon the adequacy of contingency planning,
             including backup and recovery procedures and testing of the plans; requires
             that personnel be trained in their contingency-related duties; and requires that
             contingency plans be stored in a safe place. The Department of the Interior’s
             “Automated Information Systems Security Handbook” and the MM’SManual
             mandate routine cyclical off-site storage for all automated information


                                            12
                                                                                APPENDIX 1
                                                                                 Page 5 of 11

CONTINGENCY            PLANNING,         BACKUP,       AND DISASTER          RECOVERY

                systems data and applications providing critical support to the organization’s
                mission.

Cause:         OMM information technology officials did not ensure that adequate service
               continuity controls were in place for critical TIMS functions and operations
               to continue without undue interruption if unexpected events occurred, such
               as a system failure. In addition, OMM management did not ensure that
               critical and sensitive TIMS application components and data were protected
               by being stored off-site on a routine cyclical basis.

Effect:        In the event of a disaster or a system failure, OMM was at risk of not being
               sufficiently prepared to recover critical TIMS functions and continue critical
               operations.

Recommendations

We recommend that the Director of MMS:

         1. Develop a Continuity of Operations Plan for the Offshore Minerals Management
Information Technology Division, which includes procedures for recovery of the Division’s
critical TIMS functions.

         2. Periodically test the Continuity of Operations Plan and update the Plan based on
the test results.

         3. Ensure that copies of the Continuity of Operations Plan are maintained at the off-
site facility.

        4. Ensure that backup copies of TIMS applications, components, and data are stored
at the off-site storage facility on a routine cyclical basis.

         5. Provide training to OMM personnel who are responsible for the recovery of
critical TIMS business functions and operations about their roles and responsibilities related
to the Continuity of Operations Plan.




                                              13
                                                                              APPENDIX 1
                                                                               Page 6 of 11

SYSTEM ACCESS CONTROLS

D. User Access

Condition:     OMM did not adequately control access to TIMS databases. Specifically,
               employees who were no longer employed by MMS still had access to TIMS.
               For example, we found that 28 percent of employees who had terminated
               their employment still had access to the TIMS Gulf of Mexico regional
               production database; 6 percent of departed employees, including the prior
               Database Administrator, had access to the TIMS development database; and
                13 percent of departed employees had access to the TIMS Customer User
               Acceptance Team, the testing database. In addition, 798 users had access to
               the Customer User Acceptance Team’s database when there were only
               79 team members who were authorized to access the database.

Criteria:      NIST’s Special Publication 800-14, “Generally Accepted Principles and
               Practices for Securing Information Technology Systems,” states:

                  It is necessary to periodically review user account management on a
                  system. Reviews should examine the levels of access each individual
                  has, conformity with the concept of least privilege, whether all
                  accounts are still active, [and] whether management authorizations
                  are up-to-date.

Cause:        OMM Gulf of Mexico regional and Information Technology Division
              officials did not ensure that controls were in place to delete employee access
              to TIMS when employees departed the organization.

Effect:       As a result, the risk was significantly increased that unauthorized users could
              gain access to sensitive and mission-critical TIMS data and applications.

Recommendations

We recommend that the Director of MMS:

        1. Implement controls to ensure that access to TIMS for employees who have
terminated employment is removed in a timely manner.

        2. Ensure that access to the Customer User Acceptance Team database is limited to
authorized users.




                                            14
                                                                             APPENDIX 1
                                                                              Page 7 of 11

SYSTEM ACCESS CONTROLS

E. Number of Log-In Attempts

Condition:     OMM’s number of unsuccessful log-in attempts to access TIMS exceeded the
               standard established by the Department of the Interior. Specifically, TIMS
               users were allowed six unsuccessful log-in attempts before the user was
               locked out of the system.

Criteria:      The Department’s “Automated Information Systems Security Handbook”
               specifies three as the number of unsuccessful log-in attempts.

Cause:         OMM information technology officials did not ensure that the number of
               allowed unsuccessful log-in attempts was established in accordance with
               Departmental standards. OMM information officials stated that log-in
               attempt policies were set using the default settings recommended by the
               software vendor and the defaults set by the Royalty Management Program.
               However, security management officials of the Royalty Management
               Program had requested and were granted a waiver to deviate from the
               Departmental standard by the Department’s Office of Information Resources
               Management.

Effect:        As a result, the increased number of invalid attempts reduced the
               effectiveness of the password as an access control. In addition, the risk was
               increased for unauthorized access to sensitive TIMS data.

Recommendation

We recommend that the Director of MMS evaluate the risk involved in deviating from the
Department of the Interior standard for the number of unsuccessful log-in attempts. If the
Director determines that the number of invalid attempts should remain at six, OMM
management should request a waiver from the Department to deviate from the standard of
three attempts.




                                             15
                                                                            APPENDIX 1
                                                                             PageSof

SYSTEM       ACCESS     CONTROLS

F. Password     Management

Condition:    The password controls established by OMM in the Windows NT operating
              system allowed all system users to retain passwords indefinitely, even though
              the system required users to change their passwords after 90 days. The
              controls did not require that a password history be maintained, and the
              controls allowed users to change their passwords consecutively until the
              original password could be reused.

Criteria:     The security of a password system is dependent upon keeping passwords
              secret. NIST Federal Information Processing Standards Publication 112,
              “Password Usage,” states that passwords “should be changed periodically
              with a maximum interval selected by the Security Officer.” The Publication
              further states that the system “should check that the new password is not the
              same as the previous password” or any number of previous passwords and
              maintain a history of the passwords of each user.

Cause:        OMM information technology officials did not change Windows NT
              password default settings to ensure that passwords were not reused or cycled
              through quickly.

Effect:       As a result, the risk was increased that a password could be discovered and
              used to obtain improper access to TIMS.
                                                                                              ,

Recommendation

We recommend that the Director of MMS implement controls to ensure that system software
settings are established to prevent users from reusing passwords or cycling through
passwords quickly.




                                           16
                                                                                             APPENDIX 1
                                                                                              Page 9 of 11

SOFTWARE             DEVELOPMENT                  AND CHANGE MANAGEMENT

G. Software Change Request and Approval Process

Condition:        At the Gulf of Mexico Region, formal software change control procedures
                  had been developed and implemented for the ongoing support and
                  maintenance of TIMS. However, we found that OMM Information
                  Technology Division personnel did not ensure that change requests were
                  received from authorized users; that the changes were coordinated among all
                  the OMM regions; and that all changes were reviewed, approved, and
                  prioritized by the OMM Maintenance Change Board. During October 1998
                  through June 1999, there were 1,157 change requests for TIMS, of which we
                  statistically selected 132 changes’ to determine the adequacy of the change
                  management process. We found that of the 132 sampled change requests,
                  24 change requests (19 percent) were not submitted by an authorized user
                  representative and 130 change requests (98 percent) were not coordinated
                  with user representatives in the other three OMM regions. We also found no
                  documentation to support that the changes had been reviewed and prioritized
                  by the Maintenance Change Board.

Criteria:         NIST Federal Information Processing Standards Publication 106, “Guideline
                  on Software Maintenance,” prescribes guidelines for maintaining software.
                  According to the Publication, the primary purpose of change control (or
                  change management) is to ensure smooth operational continuity and orderly
                  evolution of the system. Effective change controls are needed to ensure that
                  all software installations are performed in a structured and controlled manner
                  and provide management with a chronological history of all software
                  modifications.     Key change management control points ensure that all
                  changes to hardware and software are formally requested, approved, and
                  documented.     In addition, the Publication states that “there should be a
                  centralized approval point for all software maintenance projects.” Also, the
                  “TIMS Methodology Handbook” states that Customer User Acceptance Team
                  “leaders in the regions [should] coordinate program changes and issues
                  among themselves before submitting a written request to the Information
                  Technology Division.” In addition, the Handbook requires the Maintenance
                  Change Board to review and prioritize software change requests.

Cause:            Division personnel did not enforce OMM policies and procedures that
                  required change requests to be accepted from Customer User Acceptance



‘Although we selected 132 change requests for review, we did not review all of the requestsfor specific
attributes because some ofthe requests selected were canceled or were not completed at the time of our review.

                                                      17
                                                                               APPENDIX 1
                                                                               Page 10 of 11

SOFTWARE          DEVELOPMENT             AND CHANGE            MANAGEMENT

               Team leaders only, to be coordinated among the OMM regions, and to be
               reviewed and prioritized.

Effect:        As a result, the risk is increased that operational problems will be introduced
               into the TIMS production environment. Because change requests result in
               changes to the TIMS production environment and implemented in all OMM
               regions, the lack of controlling and coordinating change requests among the
               Customer User Acceptance Team leaders could result in changes being made
               for one region that affect another region’s ability to access and process
               transactions efftciently and effectively. Further, the resultant errors and
               production problems could be time-consuming and difficult to diagnose and
               correct. Additionally, without reviews and prioritization of change requests,
               there is little assurance that the most critical changes will be implemented
               first.

Recommendations

We recommend that the Director of MMS:

        1. Enforce TIMS change control policies and procedures to ensure that all
modifications are properly coordinated, authorized, approved, reviewed, and prioritized.

           Evaluate the current policy for submitting changes to TIMS and determine
          2.
whether the number of authorized persons who submit software changes can be reduced.




                                             18
                                                                               APPENDIX 1
                                                                               Page11 of11

SOFTWARE DEVELOPMENT AND CHANGE MANAGEMENT
H. Testing

Condition:     Testing and documentation of software changes to TIMS were not adequate.
               Specifically, we found that, ofthel08 changes tested, 62 changes (57 percent)
               did not have test plans. In addition, 24 (24 percent) of 100 changes were not
               tested by either the quality assurance group or the user group (see footnote 1
               in Finding G).

Criteria:      Publication 106 states that testing standards and procedures “should define
               the degree and depth of testing to be performed and the disposition of test
               materials upon successful completion of the testing.” Also, the Publication
               states that testing is a critical component of so&are maintenance and that
               test plans should define the expected output of a test and test for valid,
               invalid, expected, and unexpected cases.           In addition, the “TIMS
               Methodology Handbook” states that test plans are to be developed and kept
               current for each of the TIMS components. Test plans also became required
               documentation in 1998.

Cause:         Although OMM had policies and procedures for software development and
               change management, OMM management did not ensure that the software
               change policies and procedures were complied with.

Effect:        As a result, the risk was increased that processing irregularities or malicious
               codes could be introduced, sensitive data could lack integrity, and TIMS
               applications may not function to meet user requirements.

Recommendation

We recommend that the Director of MMS enforce its policies and procedures for developing
test plans, testing software changes, and documenting test results for all changes made to
TIMS.




                                             19
                                              APPENDIX 2

                  COMPONENTS OF TECHNICAL
              INFORMATION MANAGEMENT SYSTEM

Adjudication Tracking System (ATS)
Block and Boundary
Supplemental Bonding
Certs
Civil Penalty
Company and Bonding
Element Data Dictionary
Environmental: Coris
Environmental: Physical
Environmental: Social
Events
Form Navigation
Geologic
Inspections
Lease Administration
Lease Status
Lease Suspensions
Meters
Oil Spill Financial Responsibility
Performance review
Pipelines
Plans
Platforms
Post Sale
Presale
Production
Public Information
Rate Control
Reserves
Rigs
Royalty Relief
Sale
 Sampling
 Security
 Seismic
 TIMS Methodology
 TIMS Shared
 TIMS Support library
 Tract Evaluation
 Units
 Wells

                                     20
                                                                                  Lx*   I   LI.”    A‘.   2



                                                                                  Page             1 of       8


                   United States Department of the Interior
                              MINERALS MANAGEMENT SERVICE
                                      wuhinpn. Lx 20240




                                                 JUL 19 X00



Memorandum

To:            Assistant Inspector General for Audits

ThrOUglX       Sylvia V. Baca
           h   Assistant Secretary, Land and Minerals Management

               Walt Rosenbusch 7 G *k Y
               Director, Minerals Management

Subject:       Office of Inspector General Draft Audit Report, “General and Application
               Controls Over the Technicai Information Management System, Offshore
               Minerals Management, Minerals Management Service” [A-IN-MMS-OOl-
               99-R]

Thank you for the opportunity to respond to the draft audit report on our Technical
Information Management System. We are providing to you our general comments on the
audit findings and specific ones on the recommendations. We agree with all 15
recommendations and are in the process of implementing them.

Please contact Bettine Montgomery at (202) 208-3976 if you have any iiuther questions.




Attachment




                                            21
                                                                                        APPENDIX 3
                                                                                        Page 2 of 8



                  Minerals Management Service Response to Draft Audit Report
                          “General and Application Controls System-

 Audit Agency:         Office of Inspector General

 Report Number:        A-IN-MMS-00 I -99-R (May 2000)

 GENERQL COMMENTS

 We appreciate the opportunity to review and comment on the Office of Inspector General’s draft
 audit report referenced here. Overall, we believe this was a fair evaluation of the Technical
Information Management System in our New Orleans Office. We concur with all the
recommendations provided in the report. We will respond to each of the eight weaknesses
identified by providing (1) how we have already addressed improving the controls over TIMS,
(2) how we plan to address improving the controls that are not currently in place, or (3)
information in support of the controls we have in place, and therefore challenge the findings of
the OJG.

COMMENTS ON WEAKNESSES A.ND RECOMMENDATIONS

A. Computer Security Plan: Mh4S had not developed a security plan for TIMS, which has
   been identified by MMS as a sensitive and mission critical system.

   Recommendation Al. We recommend that the Director of MMS ensure that a computer
   security plan for TIMS is developed, implemented, and monitored in accordance with the
   United States Code, Office of Management and Budget Circular A-130, and National
   Institute of Standards and Technology guidelines.

   Response: AGREE - MMS has identified TIMS as a sensitive and mission critical system.
   Because of this designation, the Offshore Minerals Management Program had a draft security
   plan that was provided to the OIG Auditor. This plan was in addition to the TIMS Y2K
   documentaddressed in the Report. We agree that our plan did not meet the statutory
   requirements for a security plan. During the audit, OMM began the development of a plan to
   meet the requirements addressed in OMB Circular A-130, Appendix III, and NIST Special
   Publication 800- 18.

   Tbe responsible official is the Chief, Jnformation Technology Division

   Target Date: We plan to have a draft document prepared for review by the end of October
   2000 and a final computer security plan completed by no later than March 2001. By the
   time the sectily plan for TIMS is completed, all OMM users will have been trained on their
   security responsibilities in the use of the system.

B. Computer Security Training: Mandatory computer security awareness training had not
   been provided to OMM employees and contractor personnel.
                                                                                        Page   3   of 8
                                                                                                   2



     Recommendation     Bl. Implement policies and procedures to ensure that OMM employees
     and contractor personnel who are involved with sensitive component systems receive annual
     computer security awareness training.

     Response: AGREE - OMM has not held periodic training as required by the Computer
     Security Act of 1987 (P.L. 100-235) for “ail employees [and contractors] who are involved
     with the management, use, or operation of each Federal computer system within or under the
     supervision of that agency.” We are in the process of developing and implementing policies
     and procedures to ensure that employees and contractor personnel receive periodic computer
     security awareness training. Nowhere in the laws and regulations did we find that the
    training is mandatory on an annual basis. OMM will provide security awareness training for
    new employees and contractors within 60 days of working on the OMM systems. All new
    employees and contractors must complete a Computer Services Access Request form prior to
    receiving an account on the MMS computer system. This request form includes five securitj
    statements that require the user’s signature before the account is assigned.

    OMM has appointed a new securityofficer and recently hired a security specialist to develop,
    implement, and monitor security policy. These individuals also are charged with the
    development and implementation of a computer security awareness training program for
    users, systems administrators, and management within OMM. All OMM employees and
    contractors will participate in a security awareness-training program before the end of
    Calendar Year 2000. All employees will have, at a minimum, computer awareness training
    every even numbered calendar year. Periodic security alerts will be sent to all employees on
    an as needed basis, or as conditions warrant an update.

    Recommendation    B2. Ensure that training is documented in the employee human resources
    files.

   Response: AGREE - OMM will ensure that the computer security awareness training is
   documented in the employee’s human resources file.

   The responsible offkial is the Deputy Associate Director for Offshore Minerals
   Management.

   Target date: we will train all OMM employees and contractors in computer security
   awareness by December 2000.

C. Service Continuity: OMM did not have an effective means of recovering or continuing
  critical TIMS functions and operations in the event of a system failure or a disaster. The
  Gulf of Mexico Region’s April 1996 Continuity of Operations Plan has not been tested. The
  Plan did not include recovering critical TIMS development and maintenance functions. The
  Regional personnel responsible for the Plan had not been trained in their roles and
  responsibilities. The Plan was not available at the designated offsite storage facility. The
  backup tapes of critica TIMS data and applications were not routinely transferred to the off-
  site storage facility.




                                                 23
                                                                                           Page 4 of   8
                                                                                                3



     Recommendation Cl. Develop a Continuity of Operations Plan for the Offshore Minerals
     Management Information Technology Division, which includes procedures for recovery of
     the Division’s critical TIMS functions.

     Response: L&Z&EE      - Since the audit was conducted, OMM has reorganized various
    functions within the New Orleans Office. We have moved all TIMS server hardware,
    development, and Gulf of Mexico Region production under one management structure. A
    new Continuity of Operations Plan has been finalized for the New Orleans computer center
    that includes all hardware operations at that location. The Plan also includes procedures for
    the recovery of critical TIMS functions.

    Recommendation C2. Periodically test the Continuity of Operations Plan and update the
    Plan based on the test results.

    Response: &&JZ - We plan to test the New Orleans Continuity of Operations Plan prior
    to the end of Calendar Year 2000 and on a regular basis in the future.

    Recommendation C3. Ensure that copies of the Continuity of Operations Plan are
    maintained at the offsite facility.

    Response: &%EE - An updated copy of the Continuity of Operations Plan can be found in
    the Headquarters office of the Information Technology Division and also at a new offsite
    storage facility in the New Orleans area.

    Recommendation C4. Ensure that backup copies of TIMS applications, components, and
    data are stored at the offsite storage facility on a routine cyclical basis.

   Response: AGREZ - We have established and implemented new backup procedures. We
   also store backup copies of the TIMS applications, components, and data at the new offsite
   storage facility in the New Orleans area. These items are rotated on a routine basis as
   defined in the Continuity of Operations Plan. All boxes are clearly labeled for quick
   recovery.

   Recommendation CS. Provide training to OMM personnel who are responsible for the
   recovery of critical TIMS business fimctions and operations about their roles and
   responsibilities related to the Continuity of Operations Plan.

   Response: AGREE - We will train OMM personnel concerning their roles and
   responsibilities for the recovery of critical TIMS business fimctions and operations.

   The responsible official is the Regional Director, Gulf of Mexico Region.

   Target date: Test New Orleans Continuity of Operations Plan by December 2000.

D. User Access: OMM did not adequately control access to the TIMS databases. Specifically,
   employees who were no longer employed by MMS still had access to the TUIS.




                                                 24
         Recommendation     Dl. implement controls to ensure that access to TIMS for employees
         who have terminated employment is removed in a timely manner.

         Response: AGlU$ -When an employee leaves the Bureau, a procedure is in place to
         terminate all access to the MMS and TIMS systems.

         Recommendation       D2. Ensure that access to the Customer User Acceptance Team database
         is limited to authorized users.

        Response: ,AGREE:      -We have implemented new procedures to ensure that access is
        available only to those who have a need to know the TIMS information. Procedures have
        also been put in place to provide access to only those who have completed a user access
        form. The Office of Responsibility must also grant permission prior to the user having
        access to the TIMS data. We have established a database to track user access to the TIMS
        system. The same procedures will be followed for all employees requiring access to the
        Customer User Acceptance Team database.

        The responsible official is the Deputy Associate Director, Offshore Minerals
        Management.

        Target date: Task Completed.

    E. Number of Log-In Attempts: OMM’s number of unsuccessful log-in attempts to access
       TIMS exceeded the standard established by the Department of the Interior. Specifically,
       TIMS users were allowed six unsuccessful log-in attempts before the user was locked out of
       the system.

        Recommendation El. MMS should evaluate the risk involved in deviating from the
        Department of the Interior standard for the number of unsuccessful log-in attempts. If the
        Director determines that the number of invalid attempts should remain at six, OMM
        management should request a waiver from the Department to deviate from the standard of
        three attempts.

e       Response: AGREE - The number of unsuccessful log-in attempts has been established at
        three unsuccessful log-in attempts before the user is locked out of the system.

       The responsible official is the Deputy Associate Director, Offshore Minerals
       Management.

       Target Date: Task Completed.

    F. Password Management: The password controls established by OMM in the Windows NT
       operating system allows all system users to retain passwords indefinitely, even though the
       system required users to change their passwords after 90 days. The controls did not require
       that a password history be maintained, and the controls allowed users to change their
       passwords consecutively until the original password could be reused.




                                                    25
                                                                                         Page     6   of a
                                                                                                  5



    Recommendation        Fl, MMS should implement controls to ensure that system software
    settings are established to prevent users from reusing passwords or cycling through
    passwords quickly.

    Response: AGREE - All NT servers that are supported by OMM and MMS have the
    password setting to prevent the reuse or quick recycling of passwords. These passwords
    must be changed every 90 days. The Council of Information Management Officials
    established this policy on behalf of the Bureau.

   The responsible   officials are members of the Council of Information    Management
   Officials.

   Target Date: Task Completed.

G. Software Change Request and Approval Process: At the Gulf of Mexico Region, formal
   software change control procedures had been developed and implemented for the ongoing
   support and maintenance of TIh4S. However, we found that OMM Information Technology
   Division personnel did not ensure that change requests were received from authorized users;
   that the changes were coordinated among all the OMM regions; and that all changes were
   reviewed, approved, and prioritized by the OMM Maintenance Change Board. We also
   found no documentation to support that the changes had been reviewed and prioritized by the
   Maintenance Change Board.

   Recommendation Gl. Enforce TIMS change control policies and procedures to ensure that
   all modifications are properly coordinated, authorized, approved, reviewed, and prioritized.

   Response: &&l%: - The Information Technology Division has not been in the position to
  reject the TIMS maintenance and/or enhancement change requests submitted by the program
  office. In the early development of TIMS, OMM established the Component User
  Acceptance Team leader concept for each major subject area of TIMS to be the focal point
  for ongoing program changes. The Teams are responsible for the program view and                     -
  coordination of their respective components. The Information Technology Division
  implemented the change requests as submitted.

   To deal with the large number of change requests, the TIMS Project Office established a
  Change Control Group (called Maintenance Change Board in the Report). The Information
  Technology analyst who knew the design and was responsible for the maintenance of the
  TIMS components was a member of this Group. The TIMS Maintenance Methodology
  states that all requests will be reviewed and prioritized, and deadlines will be set for
  implementation. All change requests are entered into the tracking system called Defect
  Control System. The Change Control Group reviewed all outstanding work requests in the
  Defect Control System and made assignments to the staff, weekly. The tracking of the
  request in the Defect Control System was the documentation.

 The OMM Information Technology Division staff did not track nor collect information in
 reference to the Component User Acceptance Team coordinating change requests with peers
 in other regions. That is the responsibility of the Team leader. Upon completion of a work
                                                                                            Page      7 of   8

                                                                                                       6



     request of the Information Technology Division staff, all Component User Acceptance
     Teams for that component were notified by the Information Technology Division that the
     work request was completed. The module was then ready for testing prior to final
     deployment to all OMM sites.

     In October 1999, the Information Management Committee determined that it needed to better
    manage the change control policies and procedures. The Committee authorized the creation
    of a new TIMS Change Control Board. The Board is comprised of representatives from the
    OMM program offices and Chaired by the Deputy Regional Director of the Gulf of Mexico
    Region. The purpose of the Change Control Board is to review, monitor, evaluate, approve/
    disapprove, and prioritize all enhancement and maintenance requests (submitted by the TIMS
    users) for current TJMS components. The Board will also review usage of the TIMS forms
    and reports and eliminate unused or underutilized and non-critical forms and reports,

    With the development of this Board, all programmatic changes, corrections, amendments,
    reforms, improvements, enhancements, or upgrades made to the TIMS components are
    reviewed, approved/disapproved, and prioritized. This review also entails an evaluation of
    the potential costs and benefits of proposed changes.

    Recommendation G2. Evaluate the current policy for submitting changes to TIMS and
    determine whether the number of authorized persons who submit software changes can be
    reduced.

    Response: ACRE& - The Change Control Board is not only responsible for enforcing the
   change control policies and procedures, but also controls the number of changes that can be
   made to the system. The Information Technology Division is in the final stage of
   implementing a replacement for the work request tracking system known as Defect Control
   System. The new software system is a commercial off-the-shelf solution called Visual
   Interceptor. Interceptor is web based and will only allow authorized Component User
   Acceptance Teams to forward approved work requests to the Change Control Board for final
   review and prioritization. This new web-based system will be in place by the end of calendar
   year 2000.

   The responsible official is the Deputy Associate Director for Offshore Minerals
   Management.

   Target Date: Policy to limit number of persons submitting changes - Completed.
                Implementation of request tracking by December 2000.

H. Testing: Testing and documentation of software changes to TIMS were not adequate.
   Specifically, we found that, of the 108 changes tested, 62 changes (57 percent) did not have
   test plans. In addition, either the quality assurance group or the user group did not test 24 of
   100 (24 percent) changes.


   Recommendation Hl. MMS should enforce its policies and procedures for developing test
   plans, testing software changes, and documenting test results for all changes made to TIMS.




                                                 27
                                                                                          --- - -_.- -__ _
                                                                                          Page 8 of          8
                                                                                                    7




  Response: AGREE - We agree with the recommendation made in the report that OMM
  should enforce the TIMS Maintenance Methodology policies and procedures related to
  testing and its documentation. We do not agree with the analysis that drew the auditors to
  their recommendations. Based on our analysis of the full 132 sample set, our findings are
  different from the auditor. Specifically, of the 62 changes (57 percent) that did not have
  individual test plans, OMM determined 59 changes to be exceptions that did not require test
 plans. Although the TIMS Maintenance Methodology requires test plans, there are certain
 changes that are considered routine and/or minor and, therefore, would not require individual
 test plans. These exceptions include reports (41); and system administration functions,
 database triggers, packages, and menu change requests (18). Therefore, OMM found that
 only 3 of the 62 changes should have had test plans based on the TIMS Maintenance
 Methodology. Reports are covered by a generic test plan since they are fairly simple and do
 not require individual test plans.

In addition, we concur that the quality assurance or the user group did not test 24 of 100
changes. We determined that there were 20 exceptions to these changes. These exceptions
included data dictionary, domain value, or menu changes. The Database Administrator
makes these changes and, upon completion, the Component User Acceptance Team members
or an analyst tests the change. We conclude that there were only four changes that were not
tested before they were put on the production machine. Therefore, the quality assurance
group or the user group did not test only 4 percent of the changes.

The Information Technology Division is converting to a new change control tracking system,
called Visual Interceptor, that will better serve our customers with online web access to the
status of all change requests. We will properly identify all stages of the life cycle of a change
request. This new system should be fully operational by the end of the calendar year 2000.
A change request can be submitted for many Information Technology functions, not just a
change to a TIMS program.

 We recognize the need for test plans and for adequate testing of the changes, and we plan to
continue this process. We also have tightened up and enforced the policies and procedures
we have in place. There are numerous exceptions and alternative test procedures that
accompany the change management. These exceptions need to be further identified in our
TIMS Maintenance Methodology. We will continue our review of existing methodology to
expand testing and acceptance criteria to improve the process. Documentation will occur
through the implementation of the new change control tracking system.

The responsible official is the Deputy Associate Director for Offshore Minerals
Management.

Target Date: Enforcement of required test plans and testing - Completed.
             Implementation of request tracking by December 2000.
                                                                     APPENDIX 4

         STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
          Reference                   Status             Actions Required
A.l, B.l, B.2, C.2, C.5, G.2,   Resolved; not   No further response to the Office
and H.l                         implemented.    of Inspector General is required.
                                                The recommendations will be
                                                forwarded to the Assistant
                                                Secretary for Policy, Management
                                                and Budget for tracking of
                                                implementation.

C.l, C.3,C.4, D.1, D.2,         Implemented.    No further response is required.
E.l, F-1, and G.l




                                           29
                  ILLEGAL OR WASTEFUL ACTIVITIES
                       SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                     Internet Complaint        Form Address


                   http://www.oig.doi.gov/hotline_form.html



                   Within the Continental         United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-508 1 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420



                  Outside the Continental         United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Pacific Office
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-000 1

Toll Free Number
                      1

      l-800-424-508   ‘1


Commercial Numbers
    (202) 208-5300
    TDD (202) 208-2420
